SUPREME COURT OF THE UNITED STATES
NO. 20-1507
ASSOCIATION OF NEW JERSEY RIFLE & PISTOL
CLUBS, INC.; AND BLAKE ELLMAN,
Petitioners,
v.
ANDREW J. BRUCK, ACTING ATTORNEY
GENERAL OF NEW JERSEY ET AL.,
Respondents.
CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29(5), I certify that on August
11, 2021, Respondent Andrew J. Bruck’s Brief in Opposition was served
on the following individuals via electronic service. Counsel for the parties
consented to electronic service in accordance with this Court’s April 15,
2020 General Order, as amended on July 19, 2021.
Paul D. Clement
Counsel of Record
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
paul.clement@kirkland.com
Counsel for Petitioners
George C. Jones
McElroy, Deutsch, Mulvaney & Carpenter, LLP
1300 Mount Kemble Ave
P.O. Box 2075
Morristown, NJ 07962-2075
gjones@mdmc-law.com
Counsel for Respondent Thomas Williver, in his official capacity as
Chief of Police Department

Counsel for amici curiae:
Anna Marie Barvir
Michel & Associates, P.C.
180 E. Ocean Blvd., Suite 200
Long Beach, CA 90802
abarvir@michellawyers.com
Michael Shawn Catlett
Arizona Attorney General's Office,
Office of the Solicitor General
2005 N. Central Ave
Phoenix, AZ 85004
michael.catlett@azag.gov
Craig Allen Livingston
Linvingston Law Firm, P.C.
1600 South Main Street
Suite 280
Walnut Creek, CA 94596
clivingston@livingstonlawyers.com
Cody James Wisniewski
Mountain States Legal Foundation
2596 S. Lewis Way
Lakewood, CO 80227
cody@mslegal.org
I declare under penalty of perjury that the forgoing is true and
correct.

JEREMY M. FEIGENBAUM

Date: August 11, 2021

